;■>

Supreme Court, U.S.
FILED

no .Z}'23*

AUG 2 5 202I
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

GARY STEVEN CHRISTENSEN,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

PETITION FOR WRIT OF CERTIORARI

GARY STEVEN CHRISTENSEN
Pro Se
5150 N Schultz Pass Rd
Flagstaff, AZ 86001
(480) 599-7876

RECEIVED
—AUG-3-1-2021—

;■

QUESTION PRESENTED
Where no determination of federal tax liability has been made by the IRS and
the court of appeals has ruled patently contrary to this court's decision in Return Mail,
Inc. v. United States Postal Serv., 139 S.Ct. 1853 (2019) and contrary to its own
precedent in United States v. Green, 735 F.2d 1203 (9th Cir. 1984) and United States
v. Batson, 608 F.3d 630 (9th Cir. 2010), does such a radical departure from binding
precedent warrant Supreme Court's supervisory intervention to confine trial courts’
jurisdiction in criminal tax cases to those functions delegated to Congress by the
Sixteenth Amendment, which does not include the authority to ascertain, compute, and
collect federal income taxes through restitution, as that activity is statutorily relegated
to the Dept, of Treasury, but which nation wide practice routinely deprives criminal
defendants of equal protection and due process of law?

ii

)

I

TABLE OF CONTENTS
Page
QUESTION PRESENTED

11

TABLE OF CONTENTS

111

TABLE OF AUTHORITIES

vi

LIST OF RELATED PROCEEDINGS

1

CITATIONS TO THE REPORTS OF THE OPINIONS AND ORDERS ENTERED
IN THE CASE..................................................................................... 1
DECISION BELOW

2

JURISDICTION

2

CONSTITUTIONAL PROVISIONS, STATUTES, ETC

2

STATEMENT OF THE CASE

5

ARGUMENT
I.

12

THE DISTRICT COURT WAS WITHOUT JURISDICTION TO
ORDER RESTITUTION BECAUSE THE IRS, AS A MATTER OF
LAW, IS NOT A VICTIM...................................................................

12

II.

THE DISTRICT COURT WAS WITHOUT JURISDICTION TO
ORDER RESTITUTION BECAUSE THE IRS HAS AT NO TIME
MADE A FINAL DETERMINATION OF ANY TAX LOSS FOR ANY
OF THE YEARS FOR WHICH CHRISTENSEN WAS CONVICTED,
WHICH FAILURE, THE NINTH CIRCUIT HAS RULED
PRECLUDES AN ORDER OF RESTITUTION AS A
MATTER OF LAW................................................................................ 15

III.

A CRIMINAL TAX RESTITUTION ORDER, IN THE ABSENCE OF A
FINAL DETERMINATION OF TAX LOSS, DENIES DEFENDANTS
EQUAL PROTECTION AND DUE PROCESS OF LAW
19

iii

;

J,

IV.

THE DISTRICT COURT’S ORDER OF RESTITUTION WAS
ILLEGAL IN THAT THE ORDER CALLED FOR IMMEDIATE
PAYMENT OF THE RESTITUTION, WHICH COULD ONLY BE
ORDERED AS A CONDITION OF SUPERVISED RELEASE, EVEN
ASSUMING THE ORDER WAS OTHERWISE LEGAL.................. 20

CONCLUSION

21

PETITIONER’S APPENDIX

22

Memorandum decision of the United States Court of Appeals
for the Ninth Circuit (Dkt. Entry 19-1)
Pet. App. pp. 1-3
Order of the United States Court of Appeals for the
Ninth Circuit (Dkt.Entry 22) denying Christensen’s
Petitions for Panel Rehearing and Rehearing
En Banc

Pet. App. p. 4

Petition for Panel Rehearing and Petition for Rehearing
En Banc (Dkt.Entry 20)

Pet. App. pp. 5-23

Petition for Writ of Error Coram Nobis

Pet. App. pp. 24-41

Letter of July 23, 2020 from IRS

Pet. App. pp. 42-43

iv

t

TABLE OF AUTHORITIES
Page
Constitution
U.S. CONST, amend XVI

ii, 2, 19

Cases
United States v. Batson,
608 F.3d 630 (9th Cir. 2010)

ii, 12, 14

Holmes v. NCO Fin. Servs.,
538 F. App'x 765 (9th Cir. 2013)

15

In re Harlow Props., Inc.,
56 B.R. 794 (B.A.P. 9th Cir. 1985)

15

Kieslich v. United States (In re Kieslich),
258 F.3d 968 (9th Cir. 2001).........

15

Return Mail, Inc. v. United States Postal Serv.,
139 S.Ct. 1853 (2019)..............................

ii, 11, 13, 14, 21

United States v. Green,
735 F.2d 1203 (9th Cir. 1984)

ii, 17, 19, 20

United States v. Lincoln,
277 F.3d 1112 (9th Cir. 2002)

13

United States v. Ruffen,

780 F.2d 1493 (9th Cir. 1986)

13

Statutes
18 U.S.C. § 3556

2

18 U.S.C. § 3563(b)(2)

3, 12

18 U.S.C. § 3583(d)

3, 12
3, 12, 14

18 U.S.C. § 3663(a)(1)(A)
18 U.S.C. § 3663(a)(2)

4, 13
v

1

18 U.S.C. § 3663A(a)(l)

4, 13

18 U.S.C. § 3663A(a)(2)

4, 13

18 U.S.C. § 3664(a)

4, 17, 18

18 U.S.C. § 3664(i)

5, 13, 14

26 U.S.C. § 6201(a)(4)

5, 15, 19, 20

Fed.R.Crim.P.
Fed. R. Crim. P. 32(c)(1)(B)

18

VI

LIST OF RELATED PROCEEDINGS
There is currently pending in the Ninth Circuit Court of Appeals Case No. 2115515, Gary Steven Christensen v. United States of America. Christensen filed his
informal opening brief in that appeal (Dkt. Entry 3) on June 29, 2021. The Response
of the United States is due on or before August 30, 2021. This is an appeal of the
partial denial of Christensen’s Petition for Writ of Error Coram Nobis and presents the
identical issues for which the Petition for Certiorari is herein being sought.

CITATIONS TO THE REPORTS OF THE OPINIONS
AND ORDERS ENTERED IN THE CASE
District Court Order denying Christensen’s objections to the garnishments and
granting the government’s motions for disposition orders (CR Doc. 265), United States
v. Christensen, Case No. CR-14-08164 filed 10/27/2020.
District Court Order granting in part, and denying in Part, Christensen Petition
for Writ of Error Coram Nobis (CR Doc. 274, CV Doc. 30), United States v. Christensen,
Case No. CR-14-08164, CV-20-08152, filed 3/16/2021, 2021 U.S. Dist. LEXIS 9306;
2021 WL 185050 (D. Ariz. Jan. 19, 2021).1
District Court Order denying Motion for Reconsideration (CR Doc. 276), United
States v. Christensen, Case No. CR-14-08164, CV-20-08152, filed 3/16/2021, 2021 U.S.
Dist. LEXIS 49427 at *1; 2021 WL 977167 (D. Ariz. Mar. 16, 2021).

1

Although Christensen filed his Petition for Writ of Error Coram Nobis in
his criminal case, the Clerk of Court nonetheless opened a separate civil
action when the petition was filed, Case No. CV-20-08152. Documents
filed in the criminal case are cited as “CR Docs.” Documents filed in the
civil action are denoted “CV Docs.”
-1

:

DECISION BELOW
The Memorandum decision of the United States Court of Appeals for the Ninth
Circuit (Dkt. Entry 19-1) denying the appeal is unpublished, and is reproduced at Pet.
App. pp 1-3
The Order of the United States Court of Appeals for the Ninth Circuit
(Dkt. Entry 22) denying Christensen’s Petitions for Panel Rehearing and Rehearing En
Banc is unpublished, and is reproduced at Pet. App. p 4.
JURISDICTION
The Ninth Circuit entered its Memorandum decision on April 22, 2021. See Pet.
App. pp. 1-3. Christensen filed a Petition for Panel Rehearing and Petition for
Rehearing En Banc (Dkt.Entry 20) on May 3, 2021, that is reproduced at Pet. App. pp
5-23. The Order denying rehearing (Dkt.Entry 22) was filed August 2, 2021, and is
reproduced at Pet. App. p 4. This Court’s jurisdiction is invoked under 28 U.S.C. §
1254(1).
CONSTITUTIONAL PROVISIONS, STATUTES, ETC.
U.S. CONST, amend XVI:
The Congress shall have power to lay and collect taxes on incomes, from whatever
source derived, without apportionment among the several States, and without regard
to any census or enumeration.
18 U.S.C. § 3556:
The court, in imposing a sentence on a defendant who has been found guilty of an
offense shall order restitution in accordance with section 3663A [18 USCS § 3663A],
T

and may order restitution in accordance with section 3663 [18 USCS § 3663]. The
procedures under section 3664 [18 USCS § 3664] shall apply to all orders of restitution
under this section.
18 U.S.C. § 3563(b)(2):
Discretionary conditions. The court may provide, as further conditions of a sentence of
probation ... that the defendant... make restitution to a victim of the offense under
section 3556.
18 U.S.C. § 3583(d):
Conditions of supervised release. The court shall order, as an explicit condition of
supervised release,... that the defendant make restitution in accordance with sections
3663 and 3663A, or any other statute authorizing a sentence of restitution,
18 U.S.C. § 3663(a)(1)(A):
The court, when sentencing a defendant convicted of an offense under this title, section
401, 408(a), 409, 416, 420, or 422(a) of the Controlled Substances Act (21 U.S.C. 841,
848(a), 849, 856, 861, 863) (but in no case shall a participant in an offense under such
sections be considered a victim of such offense under this section), or section 5124,
46312, 46502, or 46504 of title 49, other than an offense described in section 3663A(c)
[18 USCS § 3663A(c)], may order, in addition to or, in the case of a misdemeanor, in
lieu of any other penalty authorized by law, that the defendant make restitution to any
victim of such offense, or if the victim is deceased, to the victim’s estate. The court may
also order, if agreed to by the parties in a plea agreement, restitution to persons other
than the victim of the offense.
3

18 U.S.C. § 3663(a)(2):
For the purposes of this section, the term “victim” means a person directly and
proximately harmed as a result of the commission of an offense for which restitution
may be ordered
18 U.S.C. § 3663A(a)(l):
Notwithstanding any other provision of law, when sentencing a defendant convicted
of an offense described in subsection (c), the court shall order, in addition to, or in the
case of a misdemeanor, in addition to or in lieu of, any other penalty authorized by law,
that the defendant make restitution to the victim of the offense or, if the victim is
deceased, to the victim’s estate.
18 U.S.C. § 3663A(a)(2):
For the purposes of this section, the term “victim” means a person directly and
proximately harmed as a result of the commission of an offense for which restitution
may be ordered including, in the case of an offense that involves as an element a
scheme, conspiracy, or pattern of criminal activity, any person directly harmed by the
defendant’s criminal conduct in the course of the scheme, conspiracy, or pattern.
18 U.S.C. § 3664(a):
For orders of restitution under this title, the court shall order the probation officer to
obtain and include in its presentence report, or in a separate report, as the court may
direct, information sufficient for the court to exercise its discretion in fashioning a
restitution order. The report shall include, to the extent practicable, a complete

4

accounting of the losses to each victim, any restitution owed pursuant to a plea
agreement, and information relating to the economic circumstances of each defendant.
18 U.S.C. § 3664(i):
In any case in which the United States is a victim, the court shall ensure that all other
victims receive full restitution before the United States receives any restitution.
26 U.S.C. § 6201(a)(4):
(A) In general. The Secretary shall assess and collect the amount of restitution
under an order pursuant to section 3556 of title 18, United States Code, for failure to
pay any tax imposed under this title in the same manner as if such amount were such
tax.
(B) Time of assessment. An assessment of an amount of restitution under an
order described in subparagraph (A) shall not be made before all appeals of such order
are concluded and the right to make all such appeals has expired.
(C) Restriction on challenge of assessment. The amount of such restitution may
not be challenged by the person against whom assessed on the basis of the existence
or amount of the underlying tax liability in any proceeding authorized under this title
(including in any suit or proceeding in court permitted under section 7422 [26 USCS
§ 7422]).
STATEMENT OF THE CASE
Christensen was found guilty of evading the assessment of income taxes for tax
years 2004-2010 and of failing to file income tax returns for the years 2009-2010. At
trial, for purposes of proving its case, the Government only presented evidence of
■5-

estimated tax loss for all years charged in the indictment. (Reporter’s Transcript, Doc.
110-6, p. 8, lines 3-6, lines 23-25; CR Doc. 244, p. 11; CVDoc. 1, p. 11). At sentencing,
the court ordered restitution not only for the years of conviction, but for years not
charged, 1997-2003 and 2011-2015. Payment of the amount of restitution was ordered
to be paid commencing immediately at the time of sentencing, to continue while
incarcerated, with any remainder to be paid as a condition of supervised release. (CR
Doc. 140.)2
On November 4,2016, the government sent Christensen a Demand for Payment
pursuant to 28 U.S.C. § 3205(b)(l)B) stating that restitution in the amount of
$1,604,283 is due immediately. This was over three years before Christensen was
admitted to supervised release. (CV Doc. 23, p. 3.)
Between February 18, 2020 and May 18, 2020, the government requested, and
the court issued, fourteen (14) continuing writs of garnishment to collect the ordered
restitution. (CR Docs. 181-92, 237.)
On February 28, 2020, the Government requested an extension of time for
Christensen to respond to the pending garnishments (CR Doc. 210). The District Court
granted the motion; Christensen’s response was then due on or before May 22, 2020.
(CR Doc. 214).
On May 15,2020, Christensen’s attorney filed a Motion to Withdraw because his
retainer had been garnished (CR Doc. 234, amended at CR Doc. 236). The same day the

2

The Judgment and Commitment was amended by CR. Doc 146 and CR
Doc. 231, without substantial change.
-6-

parties filed a Consent Motion for extension of time for Christensen to file a response
to the pending garnishments (CR Doc. 235). On May 22, 2020, the District Court
granted the motion to withdraw and the consent motion for extension of time, giving
Christensen until July 6, 2020 to respond to the pending garnishments (CR Doc. 238).
On June 22, 2020, Christensen now appearing pro se, having lost his criminal
representation, filed a Petition for Writ of Error Coram Nobis in the criminal case (CR
Doc. 244), a copy of which is reproduced at Pet. App. pp, 24-41, that resulted in a new
civil case being opened, CV-20-8152. (CV Doc. 1.) Christensen asserted: (1) the
government’s collection of a civil tax that has not been assessed violates the separation
of powers under the United States Constitution; (2) tax collection in the guise of
restitution must comply with the Internal Revenue Code; (3) the government did not
prove at trial the actual amount of tax owed for the charged years; (4) the restitution
order must be assessed as a civil tax under 26 U.S.C. § 6201(a)(4) and then collected
by the IRS, not the Department of Justice; (5) more than $1 million of the restitution
amount consists of back taxes for years not covered by the convictions; and (6)
Christensen was ordered to pay restitution while incarcerated. CV Doc. 1 at 1-2.
On the same day Christensen also filed a Motion to Stay all Restitution
Payments and All Garnishment Proceedings pending the District Court’s ruling on the
Petition for Writ of Error Coram Nobis. (CV. Doc. 2). The filing of the Petition for Writ
of Error Coram Nobis put the District Court and the government on notice that the
Court’s restitution order constituted plain error and was, therefore, void. The motion
to stay was premised on the grounds set forth in Christensen’s coram nobis petition.

Also on June 22, 2020, the District Court assigned Christensen’s coram nobis
petition to Magistrate Judge Deborah M. Fine and the Court’s Legal Staff. (CV Doc. 3).
On July 6, 2020, the government filed its opposition (CV Doc. 5) to the motion
to stay (CV Doc. 2) arguing there is no basis in law to stay a restitution order or
garnishment proceedings on the basis of a post judgment petition for writ of error
coram nobis.
On July 13, 2020, Christensen filed his reply (CV Doc. 6) to the government’s
opposition (CV Doc. 5) again pointing out that the District Court’s restitution was
illegal and void.
On July 16, 2020, the District Court issued its Order (CV Doc. 9) denying
Christensen’s Motion to Stay (Doc. 2) and again referring the matter to Magistrate
Judge Fine.
On July 21,2020, Christensen filed a Motion for Clarification (CVDoc. 12) of the
Court’s Order of July 16, 2020 (CV Doc. 9), seeking clarification of whether the
garnishment proceedings will stay with the District Court Judge or is referred to the
Magistrate, and seeking a 60 day extension of time to respond to the pending
garnishments because the Court denied his motion to stay (CV Doc. 2).
On July 23, 2020, the IRS sent Christensen a letter establishing the IRS had
assessed the District Court’s restitution order in the amount of $1,591,424.27. The
notice of assessments is reproduced at Pet. App. pp. 42-43.
On July 30, 2020, the District Court granted Christensen’s Motion for
Clarification (Doc. 12) as follows: The District Court retained the garnishment
■8-

proceedings in the criminal case, and ordered the government to file a response to the
60 day extension request in the civil case. (CV Doc. 13).
On August 3, 2020, the government filed its response (CV Doc. 14) arguing
Christensen failed to offer good cause or excusable neglect for not responding to the
garnishments on or before July 6, 2020 although it acknowledged the filing of the
Petition for Writ of Error Coram Nobis and the Motion to Stay, both of which were filed
on June 22, well before the July 6, 2020 date.
On August 10, 2020, the District Court issued its Order (CV Doc. 16) directing
Christensen to file a reply within the next ten days. Christensen filed his reply on
August 20, 2020 (CV Doc. 18).
On August 27, 2020, the District Court issued its Order (CV Doc. 21) denying
Christensen’s motion for an extension of time to respond to the pending garnishment
proceedings in the criminal case, and directing the Petition for Writ of Error Coram
Nobis was to remain with the Magistrate Judge for further proceedings and a report
and recommendation.
The next day, August 28,2020, Christensen, noting that the Court after denying
the motion for an extension did not set forth a date for a response to be filed, filed
Objections to Garnishments (CV Doc. 22) on the grounds the order of restitution upon
which the garnishments were premised was illegal and void for all of the reasons set
forth in the Petition for Writ of Error Coram Nobis, among other reasons as pertained
to each garnishee.

9

On September 1, 2020, despite having been made aware the restitution order
constituted plain error and was void, the government filed a Motion for Entry of
Garnishment Disposition Orders as to each garnishee. (CR Docs. 245-252; 254.)
On September 11, 2020, the government filed its Response (CV Doc. 23) to CV
Doc. 22 again arguing Christensen failed to provide good cause or excusable neglect for
not timely responding to the garnishments. On September 23, 2020, Christensen filed
his Reply (CV Doc. 25).
On September 14, 2020, the government filed its Response to the Petition for
Writ of Error Coram Nobis (CV Doc. 24), and on October 2, 2020, Christensen filed his
Reply (CV Doc. 25).
On October 27, 2020, the District Court issued its Order (CR Doc. 265) granting
the government’s motions for garnishment dispositions.
On October 30, 2020, Christensen filed a Notice of Appeal to the Ninth Circuit
(CR Doc. 267) regarding the Court’s Order, CR Doc. 265. The appeal was docketed as
Case No. 20-10355.
On November 3, 2020, Christensen filed an Emergency Motion to Stay the
garnishment proceedings in the Ninth Circuit Court of Appeals (Dkt. Entry 2) that was
denied on December 4, 2020 without benefit of opinion. (Dkt. Entry 5). On December
7, 2020, Christensen filed a Motion to Reconsider the Panel’s Decision, Dkt. Entry 6.
Said motion was denied as moot on April 22, 2021, after the Ninth Circuit denied
Christensen’s appeal Dkt. Entry 19. On May 3,2021, Christensen filed his Petition for
Panel Rehearing and Rehearing En Banc, Dkt. Entry 20. On June 21, 2021,
10-

Christensen filed a letter of additional citations, advising the Ninth Circuit of this
Court’s Opinion in Return Mail, Inc . v. United States Postal Serv., 139 S.Ct. 1853
(2019), holding that federal agencies are not victims for purposes of restitution. The
Ninth Circuit denied both Petitions on August 2, 2021, Dkt. Entry 22.
The Magistrate Judge at no time prepared a report or recommendation, in
violation of the District Court's order to do so. Thereafter, almost a full seven months
later, on January 5,2021, the District Court issued its Order (CV Doc. 29) withdrawing
the referral to the Magistrate Judge, and on January 19, 2021, granted in part, and
denied in part, Christensen's Petition for Writ of Error Coram Nobis (CR Doc. 274, CV
Doc. 30) admitting it had committed plain error in ordering restitution for years
outside of the years for which Christensen was convicted. The District Court changed
the amount of restitution from $1,603,533 to $579,706 (CR Doc. 274, p. 15), plus
prejudgment interest in the amount of $202,816.19. (CR Doc. 274, p. 16. The Court
denied the Petition on all of the other issues.
On February 2,2021, Christensen filed a Motion for Reconsideration re CR Doc.
274. (CR Doc. 276). That motion was denied on March 16, 2021 (CR Doc. 279).
Also on March 16, 2021, the District Court issued a Third Amended Judgment
(CR Doc. 277). The Third Amended Judgment changed the amount of Restitution as
noted in CR Doc. 274.
On March 22, 2021, Christensen filed a Notice of Appeal to the Ninth Circuit on
the partial denial of his Petition for Writ of Error Coram (CR Doc. 280). The case was
docketed as Case No. 21-15515.
11

ARGUMENT
I.

THE DISTRICT COURT WAS WITHOUT JURISDICTION TO ORDER
RESTITUTION BECAUSE THE IRS, AS A MATTER OF LAW, IS NOT
A VICTIM
The issue whether a federal court may order restitution as a condition of

supervised release for offenses set forth in Title 26 of the United States Code presented
a question of first impression in the Ninth Circuit. In Batson, supra, the Ninth Circuit
held that 18 U.S.C. § 3563(b)(2) and 18 U.S.C. § 3583(d) authorized such an order.
18 U.S.C. § 3563(b)(2) states the court may provide, as a further condition of a
sentence of probation, that a defendant make restitution to a “victim” of the offense
under section 3556 (but not subject to the limitation of section 3663(a) or
3663A(c)(l)(A)). The statute does not define the term “victim.”
18 U.S.C. § 3563(b)(2) pertains to supervised release. It states in pertinent part
that as an explicit condition of supervised release, the court shall order that the
defendant make restitution in accordance with sections 3663 and 3663A. 18 U.S.C. §
3663(a)(1)(A) holds a Court may order a defendant to make restitution to any “victim”
when sentencing a defendant to an offense under Title 18, or specific offenses under
Title 21 and Title 49, other than an offense described in section 3663A(c)3, or if agreed
to by the parties in a plea agreement. The term “victim” is specifically defined as a
“person” directly and proximately harmed as a result of the commission of an offense

3

3663A(c) pertains to controlled substances.
IT

for which restitution may be ordered. 28 U.S.C. § 3663(a)(2). The term “person” is not
defined.
18 U.S.C. § 3663A(a)(l) provides that notwithstanding any other provision of
law, when sentencing a defendant convicted of an offense described in subsection (c)4,
the court shall order, . . . that the defendant make restitution to the “victim” of the
offense. The term “victim” is specifically defined as a "person" directly and proximately
harmed as a result of the commission of an offense for which restitution may be
ordered. 28 U.S.C. § 3663A(a)(2). The term “person” is not defined.
The Ninth Circuit in United States v. Ruffen, 780 F.2d 1493 (9th Cir. 1986) and
United States v. Lincoln, 277 F.3d 1112 (9th Cir. 2002), as well as numerous other
Courts of Appeal, have relied upon the language contained at 18 U.S.C. § 3664(i) to
find the United States, or an United States Federal Agency, is a “victim”:
In any case in which the United States is a victim, the court shall ensure
that all other victims receive full restitution before the United States
receives any restitution.
Lincoln, id at p. 1114.
In 2019, this Court’s ruling in Return Mail, supra, effectively overturned all of
that case law. There the Supreme Court held, that in the absence of a statutory
definition of the term “person” a federal agency is not a “person.”
The patent statutes do not define the term “person.” In the absence of an
express statutory definition, the Court applies a ‘longstanding
interpretive presumption that “person” does not include the sovereign,’
and thus excludes a federal agency like the Postal Service. Vermont
4

See n.3, id.
1-3-

Agency of Natural Resources v. United States ex rel. Stevens, 529 U. S.
765, 780-781,120 S. Ct. 1858,146 L. Ed. 2d 836 (2000); see United States
v. Mine Workers, 330 U. S. 258, 275, 67 S. Ct. 677, 91 L. Ed. 884 (1947);
United States v. Cooper Corp., 312 U. S. 600, 603-605, 61 S. Ct. 742, 85
L.Ed. 1071 (1941); United States v. Fox, 94 U. S. 315, 321, 24 L. Ed. 192
(1877).
Return Mail, supra at pp. 1861-62. So too, there is no statute applicable in this case
that defines the term “person.” That leaves the task of reconciling 18 U.S.C. § 3664(i)
with Return Mail, supra, such as to not hold it to be unconstitutional on its face.
In reaching its decision in Return Mail, supra this Court held that a government
agency must make an affirmative showing of statutory intent to include the Federal
Government as a “person.”5 The United States Postal Service (USPS) set forth three
reasons to show congressional intent to include the Federal Government as “persons”
in AIA proceedings: (1) the Federal Government is recognized as a “person” in other
patent statutes, (2) the Federal Government has a long history of participation in the
patent system, and (3) it would be unfair to disallow the Federal Government to
participate in AIA proceedings, while allowing civilians to do so. This Court rejected
all three arguments.
There are two specific ways provided for by Congress that would make the
United States, or a federal agency, a “victim” despite not being a “person.” The first
is 18 U.S.C. § 3663(a)(1)(A) that allows a defendant, in a plea agreement, to agree
5

The power to order restitution is not inherent in the federal courts; it is
conferred only by statute. That there is no statutory intent to include the
IRS as a victim is buttressed by the fact that neither the Victim and
Witness Protection Act nor the Mandatory Victims Restitution Act
included restitution for violations of Title 26. Batson, supra at p. 631.

r4-

to pay restitution. The Second is 18 U.S.C. § 3664(g)(2) that allows a victim to assign
his/her interest in restitution payments to the Crime Victims Fund in the Treasury.
Here, there was no plea agreement and no assignment by the IRS to the Crime
Victims Fund in the Treasury. Furthermore, even if the Internal Revenue Service was
a “victim,” it is precluded by statute from assigning a restitution order because
Congress specifically directed the IRS to assess a restitution order and to collect it as
a civil tax. 26 U.S.C. § 6201(a)(4).
In that the IRS, a federal agency “not unlike the Postal Service,” is not a
“person” as a matter of law, it cannot be a “victim.” The District Court lacked
jurisdiction, therefore, to issue an order of restitution in this case. Issuing an order in
the absence of jurisdiction is plain error that can be raised at any time, even for the
first time on appeal. In re Harlow Props., Inc., 56 B.R. 794 (B.A.P. 9th Cir. 1985);
Kieslich v. United States (In re Kieslich), 258 F.3d 968 (9th Cir. 2001); Holmes v. NCO
Fin. Servs., 538 F. App'x 765 (9th Cir. 2013).
II.

THE DISTRICT COURT WAS WITHOUT JURISDICTION TO ORDER
RESTITUTION BECAUSE THE IRS HAS AT NO TIME MADE A FINAL
DETERMINATION OF ANY TAX LOSS FOR ANY OF THE YEARS FOR
WHICH CHRISTENSEN WAS CONVICTED, WHICH FAILURE, THE
NINTH CIRCUIT HAS RULED PRECLUDES AN ORDER OF
RESTITUTION AS A MATTER OF LAW.
The Ninth Circuit, and numerous other Courts of Appeal, have specifically held

that for an order of restitution in a criminal tax to be valid, there must first be a final
determination of a defendant’s civil tax liability:
Most circuit courts have suggested that a district court may not validly
impose such a condition unless the amount of the tax liability has been
T5'

“finally determined.” See United States v. Franks, 723 F.2d 1482,1487
(10th Cir. 1983); United States v. Touchet, 658 F.2d 1074, 1076 (5th Cir.
1981 )(per curiam); United States v. Weber, 437 F.2d 1218,1220 (7th Cir.),
cert, denied, 402 U.S. 1008,29 L. Ed. 2d 430, 91 S.Ct. 2189 (1971); United
States v. White, 417 F.2d 89, 94 (2d Cir. 1969), cert.denied, 397 U.S. 912,
25 L. Ed. 2d 92, 90 S. Ct. 910 (1970); United States v. Taylor, 305 F.2d
183, 187 (4th Cir.), cert, denied, 371 U.S. 894, 9 L. Ed. 2d 126, 83 S. Ct.
193 (1962); United States v. Stoehr, 196 F.2d 276, 284 (3d Cir. 1952).
The requirement of a final determination derives from the language in §
3651 that limits restitution to actual damages. The amount of taxes owed
is ordinarily not determined in a criminal proceeding, such as that here,
but in a separate civil proceeding or by the defendant's acquiescence in
the government's assessment of deficiency. See Stoehr, 196 F.2d at 284.
Courts have been concerned that requiring a defendant to pay a specific
amount of back taxes as a condition of probation would “hamper the
determination by legal process of the [defendant's] civil liability.” White,
417 F.2d at 94. A defendant would be forced to pay the back tax before he
had an opportunity to challenge the government's assessment of his tax
liability. Here the condition was not enforced until after Green had
agreed to the assessment of tax liability.
In virtually all tax cases invalidating probation conditions, the district
court had required the defendant to pay a specific amount of tax. See, e.g.,
Franks, 723 F.2d at 1487 ($100,000); Touchet, 658 F.2d at 1076
(deficiencies charged in indictment); White, 417 F.2d at 94 (existing
liabilities as computed by IRS). Here, the court did not require the
payment of a specific sum, but only the amount of back taxes “due and
owing.”

Both the Fourth and the Seventh Circuits have approved conditions
similar to this one. See Weber, 437 F.2d at 1218; Taylor, 305 F.2d at 188.
In Weber, the district court ordered the defendant to “make settlement in
full with the Internal Revenue Service for taxes owed” and explicitly
recognized the defendant's right to contest any tax assessed. The Seventh
Circuit held that the settlement of tax liabilities for the three years
covered by the indictment was a legitimate condition of probation under
§ 3651. Id. at 1220.
In Taylor, the Fourth Circuit struck down a condition that required the
payment of taxes before a formal determination had been made. The
----- 16

court held, however, that the district court could reframe the condition to
require payment in full, within a specified time, of all taxes “(1) found by
a jury to have been evaded (2) shown by defendant's returns to be due, or
(3) determined and assessed by the Commissioner.” Id. at 188. The court
said:
The district court may still require, as a condition of
probation, the payment of all taxes and penalties lawfully
determined to be due and collectible. The only limitation is
that the amounts of payments should be referable to a
more formal determination than the District Court's
calculations based upon otherwise affirmed computations of
a Revenue Agent.
Id. (emphasis added). That means that, although the district court may
not require the payment of a specific sum before a final determination of
tax liability, it may require payment of back taxes and refer the
determination of the specific amount to a subsequent proceeding.
Green, supra at pp. 1206-07.
As noted in the statement of the case, supra at p. 5, the government chose not
to present evidence of a final determination of tax, none having been made, but instead
only provided testimony of estimated tax loss as part of its case in chief.
18 U.S.C. § 3664(a) puts the burden on the probation officer to obtain and
include in its presentence report a complete accounting of the loss, assuming there was
an actual “person” who is a “victim.” To accomplish that, section (d)(1) authorizes said
probation officer to request that information from the prosecutor and section
(d)(2)(A)(iii) mandates said probation officer, prior to submitting the presentence
report, to provide notice to all identified victims the amounts subject to restitution and
the opportunity for said victims to submit information concerning the amount of the
victim's losses. Section (d)(5) provides if the victim's losses are not ascertainable, no
17

later than ten days prior to sentencing, the prosecutor or the probation officer shall
inform the court, who then has ninety days to make a final determination of the
amount of the loss. Section (e) places the burden of proof as to the amount of the loss
on the prosecutor. See also FED. R. CRIM. P. 32(c)(1)(B) requiring the probation officer
to conduct an investigation and submit a report that contains sufficient information
for the court to order restitution if the law permits.
At no time were the procedures outlined at 18 U.S.C. § 3664 followed nor was
a sufficient presentence report submitted to the District Court. Instead the probation
department, submitted only the estimate of tax loss, including for years outside of the
conviction, in its presentence report. The legally insufficient report was adopted in full
by the District Court, thereby committing fundamental error as recognized by the
District Court in its order partially granting the Petition for Writ of Error Coram
Nobis. (CR Doc. 274, pp. 13-14.)
What should have happened, but did not, was for the probation officer to contact
the prosecutor and the IRS to request whether a final determination of Christensen’s
civil tax liability had been determined, and if not, to notify the District Court, who
would then have had up to 90 days to order the IRS to present evidence of a legal
determination of actual tax loss.
That only the IRS has legal authority to make the final determination of actual
tax loss, and how it is done in both cases where an individual files a tax return and
where the individual fails to file a tax return is fully briefed in the Petition for Writ of
Error Coram Nobis (CR Doc. 274) commencing at p. 3 and continuing to p. 10. As set
18-

forth therein, in the case of a non-filer, the IRS must first issue a notice of deficiency
per 26 U.S.C. § 6212. A taxpayer is then entitled to file a Petition in Tax Court, after
which the IRS must assess the tax determined and then issue several notices before
collection is authorized by law. This process takes more than 90 days unless the IRS
makes a jeopardy assessment.
The record before this Court clearly establishes a lack of final determination of
Christensen’s civil tax liability for any year, much less the years for which he was
convicted. The lack of a final determination precluded the issuance of an order of
restitution. See Green, supra.
III.

A CRIMINAL TAX RESTITUTION ORDER, IN THE ABSENCE OF A
FINAL DETERMINATION OF TAX LOSS, DENIES DEFENDANTS
EQUAL PROTECTION AND DUE PROCESS OF LAW
The Sixteenth Amendment to the United States Constitution gave Congress the

authority to lay and collect taxes on income. Christensen fully briefed the laws passed
by Congress to ascertain, compute, assess and collect taxes in his Petition for Writ of
Error Coram Nobis, CR Doc. 274, pp. 3-10. Every taxpayer is entitled to the benefit of
those procedures. In situations like the case at bar, all criminal defendants are denied
the equal protection of those laws.
Furthermore, 26 U.S.C. §§ 6201(a)(4) is the assessment authority of the IRS
with respect to Court ordered restitution in a criminal tax case. 26 U.S.C. §
6201(a)(4)(A) commands the IRS assess and collect the amount of restitution made
under an order pursuant to section 3556 of Title 18. 26 U.S.C. § 6201(a)(4)(C)
specifically prohibits a criminal defendant from challenging the amount of the
19

restitution assessment. The denial of due process and equal protection was and is the
basis for the Ninth Circuit’s opinion in Green, supra, and other Court of Appeals
decisions, holding a criminal tax restitution order must be based on a final
determination of tax liability.
So too, 26 U.S.C. § 6201(a)(4) directs the IRS to collect restitution orders.
Neither the United States Attorney nor its Financial Litigation Unit are employees of
the IRS, and hence have no authority to collect taxes assessed by the IRS through
garnishment, or any other process. Collection of assessed taxes is a sole function of the
IRS.
IV.

THE DISTRICT COURT’S ORDER OF RESTITUTION WAS ILLEGAL IN
THAT THE ORDER CALLED FOR IMMEDIATE PAYMENT OF THE
RESTITUTION, WHICH COULD ONLY BE ORDERED AS A CONDITION
OF SUPERVISED RELEASE, EVEN ASSUMING THE ORDER WAS
OTHERWISE LEGAL
There is no question but that the District Court’s Judgment (CR Doc. 140),

Second Amended Judgment (CR Doc. 231) and Third Amended Judgment (CR Doc.
277) all ordered Appellant’s restitution “due immediately”. So too, as noted supra at
p. 6, on November 4, 2016, the government sent Christensen a Demand for Payment
pursuant to 28 U.S.C. § 3205(b)(l)B) stating that restitution in the amount of
$1,604,283 is due immediately. This was more than three years before Christensen was
admitted to supervised release. (CV Doc. 23, p. 3.) In making said orders, the District
Court and the Ninth Circuit violated Batson, supra.

20

CONCLUSION
Despite being made aware of this Court’s ruling in Return Mail, and in violation
of its own precedential decisions directly on point, the Ninth Circuit has approved
restitution orders that constitute plain error. This case has national implications on
the important issue of when restitution may be ordered in criminal tax cases.
The IRS is not a “person,” and thus not a “victim,” precluding restitution in the
first instance. So too, even if the IRS was a victim, a restitution order based on
anything less than a final determination by the IRS of the actual tax loss is a
fundamental error depriving all criminal defendants of equal protection and due
process, as there is no legal recourse to challenge an incorrect, much less, wholly
illegal, restitution order.
Having openly, knowingly and intentionally violated Supreme Court precedent
and its own decisions directly on point, the Ninth Circuit has so far departed from the
accepted and usual course of judicial proceedings in sanctioning the District Court’s
departure of established law, this Court must exercise its supervisory control and grant

/n

this Petition for Writ of Certiorari.
Resjseoffi

niti.en

7 Gary SjevmrChriste:
Petitioner, Pro Se

21

PETITIONER’S APPENDIX
Table of Contents
Page
Memorandum decision of the United States Court of Appeals
for the Ninth Circuit (Dkt. Entry 19-1)

1-3

Order of the United States Court of Appeals for the Ninth
Circuit (Dkt.Entry 22) denying Christensen’s Petitions
for Panel Rehearing and Rehearing En Banc

4

Petition for Panel Rehearing and Petition for Rehearing
En Banc (Dkt.Entry 20)

5-23

Petition for Writ of Error Coram Nobis

24-41

Letter of July 23, 2020 from IRS

42-43

22

